audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Millbrae Police Department
GR-90-00-020
May 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Millbrae Police Department, (MPD), California.  The purpose of the grants is to enhance community policing.  The MPD was awarded a total of $300,000 to hire four officers. 

We reviewed the MPD's compliance with seven essential grant conditions.  We found the grantee's budgeting practices, hiring, meeting the local match, preparing reimbursement requests, retention, implementation of community policing to be acceptable.  However, we noted three exceptions in the status reporting requirement.  The MPD did not accurately report program outlays on its quarterly Financial Status Reports (FSR).  In addition, four FSRs were not timely submitted and one FSR was not submitted.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.